                    OFFICE OF INSPECTIOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                                    Audit of Costs Claimed by
                                        The Navajo Nation
                                   Under Grant No. 339W023-21
                                   Foster Grandparent Program


                                       Audit Report No. 03-1 4
                                        November 26,2002



                                        Financial Schedule and
                                    Independent Auditors' Report
                                            For the Peri'od
                                   April 1,2001, to March 3 1,2002



                                             Prepared by:

                                    COTTON & COMPANY LLP
                                  333 North Fairfax Street, Suite 401
                                     Alexandria, Virginia 223 14




This report was issued to Corporation management on M:arch 28, 2003. Under the laws and regulations
governing audit follow-up, the Corporation must make final management decisions on the report's
findings and recommendations no later than September 28, 2003, and complete its corrective actions by
March 28, 2004. Consequently, the reported findings do not necessarily represent the final resolution of
issues presented.
                                                                                     CORPORATION

                                                                                     FOR NATIONAL




                             Office of Inspector General
                   Corporation for National and Community Service
                             Audit Report Number 03-14


   Audit of Costs Claimed by the Navajo Nation Under Grant Number 339W023-21


Introduction

The National Service Trust Act of 1993, Public Law 103-82, established the Corporation for
National and Community Service, (Corporation), which awards grants and cooperative
agreements to state commissions, non-profit entities, and tribes and territories to assist in
creating full- and part-time national and community service programs. Corporation
programs include AmeriCorps, Senior Programs, and Learn and Serve.

The Office of Inspector General engaged Cotton and Company LLP to audit costs claimed
by the Navajo Nation under Grant Number 339W023-21 for the Foster Grandparent
Program. The audit covered the grant period April 1, 2001 through March 31, 2002 and
included procedures to determine if costs claimed in financial reports prepared by the
Navajo Nation were allowable, if internal controls were adequate to safeguard Federal
funds, and whether the Navajo Nation had policies and procedures to ensure compliance
with Federal laws, applicable regulations and award conditions.

As a result of the work performed, the auditors are questioning $15 1,203 of the $570,473
costs claimed. Of the questioned costs, $1 14,271 results from salary and applicable fringe
benefits charged to the grant with no periodic certifications (when 100 percent of an
employee's salary is charged to the grant) and no after the fact determination of actual
activity for employees working on multiple activities.

The Office of Inspector General reviewed the report and the work papers supporting the
auditor's conclusions. We agree with the findings and recommendations presented. The
Corporation's and Navajo Nation's responses to this report are included as Appendixes A
and B, respectively.




                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, DC 20525
                        OFFICE OF INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                AUDIT OF COSTS CLAIMED BY THE NAVAJO NATION
           UNDER GRANT NO. 339W023-21 FOSTER GRANDPARENT PROGRAM
               FOR THE PERIOD OF APRIL 1,2001, TO MARCH 31,2002



                                            CONTENTS

Section                                                            Page

Background

Purpose, Scope, and Methodology

Results in Brief
   Cost Findings
   Compliance and Internal Control Issues

Independent Auditors' Report

Schedule of Claimed and Questioned Costs

Report on Compliance and on Internal Control

Appendix A: Auditee's Response to Draft Audit Report

Appendix B: Corporation's Response to Draft Audit Report
                                            auditors + advisors
DAVID
    L. COTTON, CPA, CFE, CGFM 4 CHARLES      CPA, CFE, ClSA 4 MICHAEL
                                      HAYWARD,                      W . GILLESPIE,
                                                                               CPA, CFE 4 CATHERINE
                                                                                                 L. NOCERA,CPA
        MAITHEWH. JOHNSON, CPA, CGFM 4 SAMHADLEY,CPA, CGFM 4 COLETTEY. WILSON,CPA 4 ALAN ROSENTHAL,CPA




                                                November 26,2002


   Corporation for National and Community Service
   Office of Inspector General
   1201 New York Avenue, NW
   Washington, DC 20525

    Subject:        Audit of Costs Claimed by the Navajo Nation for the Foster Grandparent Program

           At the request of the Office of Inspector General, Corporation for National and Community
   Service, Cotton & Company LLP performed an audit of costs claimed by the Navajo Nation under Grant
   No. 339W023-2 1 for the Foster Grandparent Program (FGP).



           The National Service Trust Act of 1993, Public Law 103-82, established the Corporation for
   National and Community Service, (Corporation), which awards grants and cooperative agreements to
   state commissions, non-profit entities, and tribes and territories to assist in creating full- and part-time
   national and community service programs. Corporation programs include AmeriCorps, Senior Programs,
   and Learn and Serve.

             The FGP is part of Senior Corps, a program that provides older Americans with the opportunity
    to put their life experiences to work for local communities. Foster Grandparents serve as mentors, tutors,
    and caregivers for at-risk children and youth with special needs through a variety of community
    organizations, including schools, hospitals, drug treatment facilities, correctional institutions, Head Start,
    and day-care centers.

             The Navajo Nation FGP serves the entire Navajo Reservation, an area of 27,000 square miles.
    The program is under the auspices of the Navajo Area Agency on Aging Department, which in turn
    reports to the Navajo Nation Division of Health. Under this grant, Foster Grandparents volunteer at over
    120 work sites and work with teens and children to provide health services, develop parenting skills,
    serve children in community day care centers, assist girls in a youth home, and meet various education
    and health needs.




                                                     established   98


                               333 NORTHFAIRFAX   STREET4 SUITE
                                                              401 4 ALEXANDRIA,
                                                                             VIRGINIA
                                                                                    223 14
                      7031836-6701 4 FAX 7031836-0941 4 WWW~COTTONCPA.COM4 DCOTTON@COTTONCPACOM
PURPOSE, SCOPE, AND METHODOLOGY

       We performed an audit of the following Corporation award:

                Grant No.                  Grant Period                   Review Period
              339WO23-21                0410 1101 to 0313 1I02          0410 1101 to 313 1/02



       The objectives of our audit were to determine if:

                Financial reports prepared by the Navajo Nation presented costs incurred and claimed
                fairly.

                The internal control structure was adequate to safeguard Federal funds

                The Navajo Nation had adequate procedures and controls to ensure compliance with
                Federal laws, Corporation regulations, and grant terms and conditions.

        0       Claimed costs reported to the Corporation were documented and allowable in accordance
                with grant terms and conditions.

        We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards, as revised, issued by the Comptroller General of
the United States. These standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial schedule is free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial schedule. It
also includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion on claimed amounts.

RESULTS IN BRIEF

        Audit results are detailed in Schedule A and related notes and are summarized below:

Cost Findings


                           Federal Share                      Cost Share
                       Claimed      Questioned          Claimed      Questioned
                       $498.545        $105.177            $7 1.928     $46,026



Compliance and Internal Control Issues

                The Navajo Nation did not distribute salary and benefit costs to the grant based on
                employee timesheets, but rather charged salaries and benefits based on estimates of each
                employee's activities.
               The Navajo Nation claimed costs that were unallowable and unallocable in accordance
               with Office of Management and Budget (OMB) Circular A-87 and grant terms and
               conditions.

               The Navajo Nation submitted two quarterly Financial Status Reports (FSR) and the final
               program year FSR late.

               The Navajo Nation submitted both semi-annual progress reports required under the grant
               late.

               The Navajo Nation's budget procedures are weak.

               The Navajo Nation has not provided the most current OMB Circular A-133 information
               to the Federal Audit Clearinghouse.

        We held an exit conference on November 26,2002. In addition, we provided a draft copy of this
report to the Navajo Nation and the Corporation for comment. Their responses are included as
Appendixes A and B to this report.

       This report is intended solely for the information and use of the Office of the Inspector General,
Corporation management, Navajo Nation management, and the U.S. Congress and is not intended to be
and should not be used for anyone other than these specified parties.

                                                COTTON & COMPANY LLP




                                             ~/ ~ i c h a e W. Gillespi   PA, CFE
                                                 auditors + advisors
DAVID        CPA, CFE, CGFM + CHARLES
    L. COTTON,                             CPA, CFE, ClSA + MICHAEL
                                     HAYWARD,                             CPA, CFE + CATHERINE
                                                                 W GILLESPIE,              L. NOCERA,
                                                                                                   CPA
        MATTHEWH. JOHNSON,CPA, CGFM + SAMHADLEY,
                                              CPA, CGFM + COLETTE        CPA + ALANROSENTHAL,
                                                                  Y WILSON,                 CPA




                                                      November 26,2002


   Inspector General
   Corporation for National and Community Service


                                    INDEPENDENT AUDITORS' REPORT


           We audited amounts claimed by the Navajo Nation Foster Grandparent Program (FGP) under
   Corporation for National and Community Service Grant No. 339W023-21 for the period April 1,2001, to
   March 31, 2002. Amounts claimed are summarized in Schedule A. These claimed amounts are the
   responsibility of Navajo Nation management. Our responsibility is to express an opinion on amounts
   shown in the schedule based on our audit.

           We conducted our audit in accordance with auditing standards generally accepted in the United
   States of America and standards applicable to financial-related audits contained in the Governrnent
   Auditing Standards, as amended, issued by the Comptroller General of the United States. These
   standards require that we plan and perform the audit to obtain reasonable assurance about whether the
   financial schedule is free of material misstatement. An audit includes examining, on a test basis,
   evidence supporting amounts and disclosures in the financial schedule. Jt also includes assessing
   accounting principles used and significant estimates made by management, as well as evaluating overall
   financial schedule presentation. We believe our audit provides a reasonable basis for our opinion on
   claimed amounts.

           Schedule A is intended to present allowable amounts incurred under grant terms and conditions.
    Therefore, it is not intended to be a complete presentation of the Navajo Nation's revenues and expenses.

           Questioned expenditures of $105,177 (Federal share) and $46,026 (cost share) are shown in
    Schedule A. The Corporation will make the final determinations regarding the allowability of these
    amounts.

            In our opinion, except for questioned costs in Schedule A, the financial schedule referred to
    above presents fairly, in all material respects, amounts claimed by the Navajo Nation FGP for Grant No.
    339W023-21 for the period April 1, 2001, through March 3 1, 2002, in accordance with applicable grant
    terms and conditions.




                                                           established   198 1


                                                  + SUITE
                             333 NORTHFAIRFAXSTREET     401            + ALEXANDRIA,      VIRGINIA 223 14
                     7031836-6701   FAX   7031836-0941 + W W W ~ O T T ~ N C P A . C ~+MD C ~ T T ~ N @ C ~ ~ O N C P A . C O M
         In accordance with Government Auditing Standards, we have also issued our report dated
November 26, 2002, on our consideration of the Navajo Nation's compliance with certain provisions of
laws, regulations, and grants and our consideration of its internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

       This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, Navajo Nation management, and the U.S. Congress and is not intended to be
and should not be used by anyone other than these specified parties.

                                                 COTTON & COMPANY LLP
FINANCIAL SCHEDULE
                                                                           Schedule A
                                                                           Page 1 of 5


                SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
                       CORPORATION GRANT NO. 339W023-21
                          APRIL 1,2001, TO MARCH 31,2002



Claimed Costs               Approved Budget   Claimed Costs   Questioned Costs   Notes
Federal Share
Personnel, Regular
Personnel, Temporary
Salary Adjustment
Fringe Benefits
Temp. Fringe Benefits
Assigned Vehicle Use
Personal Travel Expenses
Vehicle Mileage Expense
Vehicle Rental
Commercial Fares
Office Supplies
Postage
PrintingJBinding
Photocopying
Other LeaseIRental
Communications Expenses
Software Purchase
Consultant Fees
SeminarIRegistration Fees
Freight Fees
Other Travel Expenses
Operating Supplies
Stipends, Meetings
Stipend, Mileage
Insurance Premiums
Overclaimed Federal Share
Total

Cost Share
Personnel, Regular
Salary Adjustment
Employee Share, FICA
Stipend, Mileage
Total
                                                                                         Schedule A
                                                                                         Page 2 of 5


                           NOTES TO THE SCHEDULE OF
                      CLAIMED AND QUESTIONED COSTS UNDER
                        CORPORATION GRANT NO. 339W023-21
                          APRIL 1,2001, TO MARCH 31,2002


1.   Personnel, Regular. The Navajo Nation claimed 100 percent of salary costs for the FGP
     program management specialist and the secretary. It based the allocation percentage on the
     estimated level of effort proposed in the grant budget for these employees. No after-the-fact
     determinations of actual activity were required or obtained.

     OMB Circular A-87, Attachment B, Section 11, h.3, states that to be allowable, salary costs for
     employees working solely on a single Federal award must be supported by periodic certifications
     that the employees worked solely on that program for the period covered by the certification.
     These certifications are to be prepared at least semi-annually and signed by the employee or
     supervisor having first-hand knowledge of the work performed by the employee.

     Navajo Nation representatives stated they were not aware of the requirement to complete after-
     the-fact time certifications. Accordingly, we questioned these costs.

2.   Salary Adjustment. The Navajo Nation claimed $1,600 for merit bonuses for the FGP program
     management specialist and the secretary. For the reasons stated in Note 1, we questioned these
     costs. In addition, bonuses were not included in the approved grant budget. The grant agreement
     states that costs allowed under the grant are limited to those categories contained in the signed
     application package.

3.   Fringe Benefits. For the reasons stated in Note 1, we questioned fringe benefit costs associated
     with questioned salary costs.

4.   Assigned Vehicle Use.      We questioned $6,063 of costs for use of tribal-cwned vehicles as
     follows:

     a.      Claimed costs included $137 for a vehicle used by a clerk typist to drive to Microsoft
             computer training classes. Neither the training course cost or related travel expenses
             were approved in the proposed budget. The grant agreement states that costs allowed
             under the grant are limited to those costs contained in the signed application package.

     b.      Claimed costs included $5,926 not supported by Interdepartmental Charge Requisition
             (ICR) forms. ICRs provide details of vehicle users and purposes. Navajo Nation
             representatives were unable to locate supporting documents. OMB Circular A-87,
             Attachment A, Section C. lG), states that for costs to be allowable under Federal awards,
             they must be adequately documented.
                                                                                         Schedule A
                                                                                         Page 3 of 5


5.   Personal Travel Expenses. We questioned $6,112 of travel expenses not approved in the grant
     budget. The grant agreement states that costs allowed under the grant are limited to those costs
     contained in the signed application package. We questioned costs as follows:

     a.      Claimed costs included $750 of meals and lodging expenses for volunteer service
             coordinators (VSCs), secretaries, and clerk typists assisting in volunteer recognition
             events, transporting volunteers to meetings, delivering mail, and dropping off equipment
             to be repaired.

     b.      Claimed costs included $482 for the FGP program director to attend Arizona State
             Directors quarterly meetings. The grant budget specifically stated that these costs would
             not be paid with Federal funds.

     c.      Claimed costs included $3 16 for a secretary and a VSC to attend Navajo Area Agency on
             Aging meetings and conferences.

     d.      Claimed costs included $4,564 of travel costs for FGP staff to attend training seminars
             and conferences either not included in the grant budget or not budgeted for the
             individuals who attended. Unallowable training and conferences included:


                   Training Seminar or Conference                   Attendee
                  Tapping Senior Power Conference                   FGP Director
                  Conference for Women                              VSC
                  CNSNSSC Southwest Cluster Conference              VSC
                  Introduction to Word                              Clerk Typist
                  Arthritis Self-Help Workshop                      VSC and Clerk Typist
                  Introduction to Internet Training                 VSC and Clerk Typist
                  AmericorpsNISTA Supervisor Conference             FGP Director
                  Aging Network Trafning Session                    VSC
                  Eastern Agency on Aging Council Meeting           VSC
                  Intermediate Excel                                Clerk Typist



6.   Vehicle Mileage Expense. We questioned $462 of mileage expenses not included in the grant
     budget. The grant agreement states that costs allowed under the grant are limited to those costs
     contained in the signed application package. We questioned costs as follows:

     a.      Claimed costs included $108 for an employee to attend "New Employee Orientation"
             and for another to drop off equipment to be repaired.

     b.      Claimed costs included $354 related to unapproved training seminars and conferences.
                                                                                          Schedule A
                                                                                          Page 4 of 5


7.   Other LeaseIRental. The Navajo Nation claimed $100 for site rental expenses. These costs
     were not included in the approved grant budget. The grant agreement states that costs allowed
     under the grant are limited to those costs contained in the signed application package. We
     questioned these costs.

8.   SeminadRegistration Fees. We questioned $3,414 of registration fees, as follows:

     a.     Claimed costs included $1,715 for the FGP director, a secretary, a VSC, and three clerk
            typists to attend general computer training courses not included in the grant budget.

     b.     Claimed costs included $1,439 for conferences not included in the grant budget.
            Conferences included:

                     Tapping Senior Power
                     23'* Annual New Mexico Conference on Aging
                     9thAnnual New Mexico Conference on Adult Abuse
                     Conference for Women
                     National Senior Service Corps (NSSC) Conferences

     c.      Navajo Nation representatives were unable to locate supporting documentation for $260
             of claimed costs.

     The grant agreement states that costs allowed under the grant are limited to those costs contained
     in the signed application package. OMB Circular A-87, Attachment A, Section C.IQ), states that
     for costs to be allowable under Federal awards, they must be adequately documented.

9.   Overclaimed Federal Share. As a result of costs questioned, the Navajo Nation did not meet
     the grant's cost-sharing requirements. Code of Federal Regulations (CFR), Part 45, Chapter
     XXV, Section 2552.92, states that the Corporation will fund up to 90 percent of FGP operating
     costs. We reduced the Federal share in proportion to the Navajo Nation's contribution and
     calculated the overclaimed Federal share as follows:

     Claimed Costs
     Federal Costs
     Less Questioned Costs
     Total Federal Costs per Audit

     Cost Share Claimed
     Less Questioned Costs
     Total Cost Share per Audit

     Total Project Costs per Audit
                                                                                            Schedule A
                                                                                            Page 5 of 5


       Overclaimed Federal Share
       Federal Costs per Audit
       Less Maximum Corporation Share (90% of $437,076)

       Overclaimed Federal Share                                                      $   17.806


10.    Personnel, Regular. The Navajo Nation claimed 85 percent of salary costs for the five FGP
       Volunteer Service Coordinators. It based the allocation percentage on the estimated level of
       effort proposed in the grant budget for these employees. No after-the-fact determinations of
       actual activity were required or obtained.

       OMB Circular A-87, Attachment B, Section 11 .h, states that, where employees work on multiple
       activities or cost objectives, a distribution of their salaries or wages must be supported by
       personnel activity reports or equivalent documentation. The personnel activity reports must:

       a.     Reflect an after-the-fact distribution of the actual activity of each employee.
       b.     Account for total activity for which each employee is compensated.
       c.     Be prepared at least monthly and must coincide with one or more pay periods.
       d.     Be signed by the employee.

       Budget estimates or other distribution percentages determined before services are performed do
       not qualify as support for charges to Federal awards. This OMB circular further states that
       salaries and wages of employees used in cost sharing or matching requirements for Federal
       awards must be supported in the same manner as allowable costs claimed under Federal awards.

       In addition, the grant agreement specifically requires salaries and wages chargeable to this grant
       and other Navajo Nation programs or functions to be supported by individual time distribution
       records.

       Navajo Nation representatives stated they were not aware of the requirement to allocate salary
       costs based on after-the-fact determinations of each employees activities. Accordingly, we
       questioned these costs.

1 1.   Salary Adjustment. For the reasons stated in Notes land 10, we questioned merit bonuses for
       the VSC's.

12.    Fringe Benefits. For the reasons stated in Note 10, we questioned fringe benefit costs associated
       with questioned salary costs.
                                             auditors advisors
DAVIDL. COTTON, CPA, CFE, C C F M 4 CHARLES
                                          HAYWARD,CPA, CFE, ClSA 4 MICHAELW CILLESPIE, CPA, CFE 4 CATHERINE
                                                                                                          L. NOCERA,CPA
         MATTHEW H. JOHNSON,CPA, C G F M 4 SAM HADLEY,CPA, C G F M 4 C O L E Y.
                                                                             ~E WILSON,CPA 4 ALAN ROSENTHAL,CPA



                                                 November 26,2002


    Inspector General
    Corporation for National and Community Service


                   REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
                                  COSTS CLAIMED BY THE
                    NAVAJO NATION POSTER GRANDPARENT PROGRAM UNDER
                             CORPORATION GRANT NO. 339W023-21


            We audited costs claimed by the Navajo Nation under Corporation Grant No. 339W023-21 for
    the period April 1, 2001, to March 3 1, 2002, and have issued our report dated November 26, 2002. We
    conducted our audit in accordance with auditing standards generally accepted in the United States of
    America and standards applicable to financial-related audits contained in Government Auditing
    Stundards, as amended, issued by the Comptroller General of the United States.

    COMPLIANCE

            As part of obtaining reasonable assurance about whether the financial schedule is free of material
    misstatements, we performed tests of compliance with certain provisions of laws, regulations, and the
    grant, noncompliance with which could have a direct and material effect on the determination of
    financial schedule amounts. Providing an overall opinion on compliance with these provisions was not
    an objective of our audit and, accordingly, we do not express such an opinion. Results of our tests
    disclosed instances of noncompliance that are required to be reported under Government Auditing
    Standards. See Findings 1 through 6 below.

    INTERNAL CONTROL OVER FINANCIAL REPORTING

             In planning and performing our audit, we obtained an understanding of the Navajo Nation's
    internal control over financial reporting to determine audit procedures for the purpose of expressing our
    opinion on the financial schedule and not to provide assurance on internal control over financial
    reporting. We noted, however, certain matters involving internal control over financial reporting and its
    operation that we consider to be reportable conditions. Reportable conditions involve matters coming to
    our attention relating to significant deficiencies in the design or operation of internal control over
    financial reporting that, in our judgment, could adversely affect the Navajo Nation's ability to record,
    process, summarize, and report financial data consistent with the assertions of management in the
    financial schedules. See Findings 1 , 2 , and 5 below.




                                333 NORTH FAIRFAX  STREET4 SUITE401 4 ALEXANDRIA, VIRGINIA
                                                                                         22314
                       7031836-6701 4 FAX 7031836-094 1 4 W W Y FOlTONCPA.COM 4 ~~COTTON@CO~TONCPA.COM
         A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce to a relatively low level the risk that misstatements in amounts
that would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. We consider the reportable
conditions in Findings 1 and 2 below to be material weaknesses.

FINDINGS

1.       The Navajo Nation did not distribute salary and benefit costs to the grant based on employee
         timesheets, but rather charged salaries and benefits based on estimates of each employee's
     .   activities. The Navajo Nation claimed 100 percent of salary costs for the FGP program
         management specialist and a secretary and 85 percent of salary costs for the five FGP VSCs. It
         based allocation percentages on the estimated level of effort proposed in the grant budget for
         these employees. No after-the-fact determinations of actual activity were required or obtained.

         OMB Circular A-87, Attachment B. Section 11, h.3, states that to be allowable, salary costs for
         employees working solely on a single Federal award must be supported by periodic certifications
         that the employees worked solely on that program for the period covered by the certification.
         These certifications are to be prepared at least semi-annually and signed by the employee or
         supervisor having first-hand knowledge of the work performed by the employee.

         OMB Circular A-87, Attachment B, Section 1 1, h, states that, where employees work on multiple
         activities or cost objectives, a distribution of their salaries or wages must be supported by
         personnel activity reports or equivalent documentation. The personnel activity reports must:

         a.      Reflect an after-the-fact distribution of the actual activity of each employee.
         b.      Account for total activity for which each employee is compensated.
         c.      Be prepared at least monthly and must coincide with one or more pay periods.
         d.      Be signed by the employee.

         Budget estimates or other distribution percentages determined before services are performed do
         not qualify as support for charges to Federal awards. This OMB circular further states that
         salaries and wages of employees used in cost sharing or matching requirements for Federal
         awards must be supported in the same manner as costs claimed as allowable under Federal
         awards.

         In addition, the grant agreement specifically requires salaries and wages chargeable to this grant
         and other Navajo Nation programs or functions to be supported by individual time distribution
         records.

         Navajo Nation representatives stated they were not aware of the requirement to allocate salary
         costs based on after-the-fact determinations of each employee's activities.

         Recommendation: We recommend that the Navajo Nation immediately revise its labor
         distribution procedures to comply with OMB Circular A-87 requirements.
2.   As detailed in Schedule A, the Navajo Nation claimed costs that were unallowable and
     unallocable in accordance with OMB Circular A-87 and grant terms and conditions.

     Recommendation: We recommend that the Navajo Nation revise its policies and procedures to
     ensure that it claims only allowable and allocable costs under the FGP.

3.   The Navajo Nation submitted two of four FSRs late. It submitted the December 31,2001, report
     on March 12, 2002, and the March 31, 2002, report on September 27, 2002. The grant states that
     quarterly FSRs are due within 30 days of the end of each fiscal quarter; it further states that a
     fourth-quarter FSR is not required and the final program year FSR (March 31, 2002) is due
     within 90 days of the end of the budget period.

     Navajo Nation management indicated that they were in the process of beginning implementation
     of a new financial reporting system. The targeted system implementation date is within Fiscal
     Year 2003.

     Recommendation: We recommend that the Navajo Nation formulate and implement FSR
     reporting procedures. These procedures should also include deadline requirements for receipt of
     information from various Navajo entities that affect reporting. Additionally, we recommend that
     the Navajo Nation establish an accounting calendar with timeframes for task completion to assist
     the Contract Accounting Department in manually compiling information it needs to submit FSRs
     in a timely manner.

4.   The Navajo Nation submitted both semi-annual progress reports required under the grant late. It
     submitted the September 30, 2001, and March 31, 2002 reports, on March 6, 2002, and May 6,
     2002, respectively. The grant states that progress reports are due 30 days after the end of the
     reporting period.

     Recommendation: We recommend that the Navajo Nation formulate and implement reporting
     procedures that include deadline requirements for receipt of information from various Navajo
     entities that affect program reporting.

5.   The Navajo Nation's budget procedures were weak. Of 18 budget transfers executed during the
     audit period, 10, or 56 percent, were approved by persons not authorized to conduct financial
     transactions for the FGP. Additionally, funds were transferred from approved budget line items
     and then used for items outside the approved budget (raises and merit bonuses and unallowable
     costs for local travel and training).

     45 CFR, Chapter XXV, Section 254 1.210(3), Internal Control, states:

             Effective control and accountability must be maintained for all grant and subgrant cash,
             real and personal property, and other assets. Grantees and subgrantees must adequately
             safeguard all such property and must assure that it is used solely for authorized purposes.

     The grant states:

             Costs allowed under this grant are limited to those categories contained in the signed
             application package dated 12/26/00. The grant agreement also incorporates the Navajo
                Nation's budget proposal, which states the Program Director will monitor program
                budget and expenditures.

        Navajo Nation management attributed the breakdown in monitoring efforts to the Navajo Nation
        Council's current decentralization movement, which resulted in reduced authority of the acting
        FGP director.

        Recommendation: We recommend that the Navajo Nation centralize its monitoring efforts for
        the FGP by developing and implementing budget monitoring policies and procedures specific to
        program needs. We further recommend that the Navajo Nation direct these policies and
        procedures to Reservation field offices to ensure their understanding and require compliance.

6.      The Navajo Nation has not provided the most updated OMB Circular A-133 information to the
        Federal Audit Clearinghouse. As of November 15, 2002, the latest audit report information at
        the Clearinghouse was for the fiscal year ended September 30, 1999. The Navajo Nation had not
        yet submitted the September 30,2001, audit report information.

        OMB Circular A-133, Subpart C, Section 320 states:

                 ...the data collection form.. .and the reporting package.. .shall be submitted within 30
                days after receipt of the auditor's report(s), or nine months after the end of the audit
                period, unless a longer period is agreed to in advance by the cognizant or oversight
                agency.

        Recommendation: We recommend that the Navajo Nation forward all necessary and updated
        OMB Circular A-133 data to the Federal Audit Clearinghouse.

        This report is intended solely for the information and use of the Office of the Inspector General,
Corporation management, Navajo Nation management, and the U.S. Congress and is not intended to be
and should not be used by anyone other than these specified parties.

                                                 COTTON & COMPANY LLP
                                           APPENDIX A




AUDITEE'S RESPONSE TO DRAFT AUDIT REPORT
                    THE
                    NAVAJO
                    NATION
                    Navajo Area Agency on Aging/ P.O. Box 13901Window Rock, Arizona 865 151(928) 871-6868

Joe Shirley, Jr.                                                                         Frank Dayish, Jr.
President                                                                                Vice President

                                                February 19,2003


          Terry Bathen, Deputy Inspector General
          For Audits and Policy
          Inspector General
          1201 New York Avenue, NW
          Washington, D.C. 20525

          Dear Mr. Bathen:

          Attached is a response to the draft report for the Navajo Foster Grandparent Program
          audit, Grant #339W023-21.

           If you have any further questions, please call at (928) 871-6873, if I should not be
           available, please call the sponsor, Navajo Area Agency on Aging Program Manager,
           Laverne Wyaco at (928) 871-6783.

           Sincerely,      /--




          $&kt      2,-   &+
            rene Eldridge, Manage ent Specialist
           Foster Grandparent Program
           Navajo Area Agency on Aging


           xc:     Laverne Wyaco, Program Manager, Navajo Area Agency on Aging
                   Lisa Guccione, Program Specialist, AZ State CNS Office
                   Theresa Galvan, Legislative Analyst, Navajo Division of Health
                   Arthur Natonabah, Senior Accountant, Navajo Area Agency on Aging
                   Program File




                                            I                          J
                                                      OFFICE OF THE
                                                   INSPECTOR GENERAL
RESPONSE TO THE NOTES TO THE SCHEDULE OF CLAIMED AND
QUESTIONED COSTS UNDER CORPORATION GRANT NO. 339W02321,
APRIL 1,2002 TO MARCH 31,2002

  1. Personnel Regular and Positions Matched: Policy on allowable, salary costs
     for the two staff funded with Corporation funds was at no such time shared with
     myself or the sponsor agency either from the Arizona State Corporation Office or
     from the sponsor, Navajo Nation Government offices who deal with financial
     policy matters and federal funds since my employment from 1990. I have neither
     heard of any such policies from both at the New Mexico and Arizona State CNS
     Offices nor the national level during the Project Director orientations, meetings or
     conferences. Normally though out my years of employment, if there is a
     significant policy to be enforced, it is made known from the CNS State Offices
     and National Corporation Offices.
     The Arizona State CNS Director has however stated that if the staff are funded at
     100% with CNS federal funds, then the funded staff are required to work 100%
     on the FGP. I myself reiterated this policy the my supervisor. The validity of
     this policy was raised by the sponsor agency, the Navajo Area Agency on Aging
     Program Manager during a meeting with the Arizona State Director in 2001. The
     question was clarified and our sponsor has abided by this policy.
     But as far as documenting and implementing certifications twice a year, the
     sponsor and myself were not aware that the two employees funded with CNS
     were required to sign these documents twice a year. Nor were we informed that
     the staff positions matched to the grant were to document their specific activities
     daily. The Arizona State Office did inform that the percentage allocated time
     indicated in the program budget justification was the guidance used for staff to
     devote their time on the FGP, which was 85% for the grant year.

     Had we been informed, these documentations would have been implemented to
     document the daily activities and certifications required.

  2 . Salary adjustment: I was informed that merit bonuses were disallowable by the
     AZ State CNS Director, which I informed my supervisor. My supervisor called
     the Arizona State Corporation (Program Specialist who was assigned to oversee
     the Navajo FGP) and requested if the bonuses were allowable, the reply was yes.
     Verbal approval was granted over the telephone for merit bonuses to the sponsor
     Program Manager. Unfortunately, our agency did not request approval in writing.
  3. Fringe Benefit Cost: Fringe Benefit Cost is at all times included in the Budget
     Justification submitted and approved by the Arizona State CNS Office and the
     program follows a rate approved by the sponsor for all tribal programs.
  4. Assigned Vehicle Use:
         a. Assigned vehicle was used by staff to attend training. Training course
             cost was approved for the SeminarIRegistration for "Staff registration fees
             for writing seminar, management training", etc.                 "Cost of
             seminarlregistration will vary depending on the type of course". If the
         seminarlregistration fees were approved for program staff, how then
         would the staff be able to transport themselves to the trainings. Assigned
         vehicle was the option because that is the cheaper expense, considering
         our enormous geographic distance to travel to get adequate training for our
         staff, which is any where from half an hour to two hours.
      b. Claimed cost of $5,926 not supported by Interdepeartmental Charge
         Requisition forms: Because of the enormous geographic service area for
         Navajo Nation (Service delivery area covers AZ, NM and UT), our
         program administration and delivery of service is divided into five
         regional offices and each regional office would have to be contacted for
         documentation. The regional FGP Staff usually document on the ICRs the
         purpose and intended use of an assignedllease vehice, destination and
         estimate mileage and cost. We can attempt again to locate the documents
         from the five agency offices. And if they are not adequately documented,
         proper documentation (how to fill out the form) needs to be reviewed with
         Agency FGP Staff and their Agency Program Supervisors and the
         sponsor's central administration accountants ensure accountability.
5. Personal Travel Expense: Meals and lodging for staff
      a. (1) Volunteer Recognition Events: Program staff have escorted and
         transported volunteers to recognition events for overnight travel. Travel
         and volunteer recognition event locations have been shared with the
         Arizona State CNS Office and cleared travel for staff to transport
         volunteer as a necessary part of providing meaningful recognition for
         volunteers.
         (2) Transporting volunteers to meetings: Justification was provided in a
         cover memo to the budget justification several years ago to the Arizona
         State CNS Office. Transporting elderly volunteers was essential because
         of the geographic long distance travel for volunteers to attend periodic
         advisory council meetings. Travel may take 1 hour to 4 hours depending
         on each regional agency office. Since elders are up in age and tire easily
         driving long distance, it is our program policy to transport elders, assist
         them and have them participate as volunteer members for advisory council
         meetings.
         (3) Daily mail and dropping of computer equipment for repairs service is
         not available in the isolated, rural Navajo Reservation. The local
         department transit bus discontinued delivery of weekly mail on their
         buses. At times, there are urgent and necessary documents, such as
         volunteer time sheets or financial documents may need to be delivered in
         person to meet deadlines. The program utilized program funds as part of a
         necessary function and operation costs.

       b. (1) Arizona State Directors Quarterly Meetings: In the Local Travel
          budget justification a sentence does state : "Quarterly state meeting cost is
          included in the Window Rock budget". The Window Rock budget is for
          the Management Specialist. The Arizona State CNS Program Specialist
          has requested for Arizona State Meeting travel to be moved to long
   distance travel since it is a 7 hour travel to Phoenix, Arizona in the current
   program budget.
c. Travel Cost for the Secretary and VSC to attend the NAAA meetings and
   conferences. The sponsor directed a re-organization to stream line NAAA
   and FGP program activities, meetings and conferences from the agency
   level to central administrative levels.        Staff are required at times to
   participate in the sponsor's meetings and conferences. The policy
   instructed to the FGP Staff is that authorization for travel is on the
   condition that the meeting is inclusive of a FGP program activity or
   volunteers are involved and an agenda stating "Foster Grandparent
   Program". Since I do not have specifice travel documents as to the
   purpose of the secretary and VSC attendance to the NAAA meetings and
   conference, I can not specifically respond. It would be helpful to
   reference the TA # and name of staff who traveled. Advice was also given
   from the AZ CNS Office, if meetings and conferences are beneficial to the
   program staff, then it would a reasonable cost.
d. Staff attendance to seminars and conferences:
    1. Tapping Senior Power Conference: FGP Director
   This trip was for a National and Community Service Corp. Conference.
   All Project Directors are invited annually to attend. Information was
   provided not only by the national office, but by the AZ State CNS Office.
   For every budget year, a budget justification submitted to the AZ State
   CNS Office for attendance to one National and Community Service
   Corporation Conference. The budget justification dated 1130103 submitted
   to the AZ State Director does state this on page 3 for the FGP Director1
   Management Specialist's travel.
   2. AmericorpsNISTA Supervisor Conference: Invitation was received
       from both the New Mexico and Arizona State CNS Directors for
       Tribal Project Directors to attend. The Senior Corp Directors were
       requested to attend on March 5thand March 6 and an evening banquet.
       Since Albuquerque is 2 and half hours away, I traveled late p.m. on
       March 31d and a.m. on March 7th. Lisa Guccione, AZ CNS Program
        Specialist sent the information. Later when request for reimbursement
       was made to the Contract Accounting Department Office, but denied
       the travel. I then called Ms. Guccione requesting a written approval.
        She e-mailed me the justification and approval which was then
       attached to the Travel Authorization and submitted to Contract
       Accounting Department             and expenditure was           approved.
       Unfortunately, I cannot find the e-mail copy, but other financial offices
       retains travel documents submitted. The document can be retrieved at
       a later date.
   3. CNSNational Senior Service Southwest Cluster Conference - VSC
        attendance. All 5 Agency VSCs attended, it would be helpful to send
        us the Travel Authorization number and the name of staff who
       traveled, so the appropriate agency can journal voucher these
                 expenses. Seminar fees were paid to CHP International for one staff,
                 but staff did not attend the conference. Fees were not recouped.
              4. Other training and conferences: The Budget Justification submitted
                 to the AZ CNS with the grant application renewal does state fees for
                 SeminarlRegistration and states "Staff registration fees are for writing
                 seminar, management training and attendance to the sponsoring
                 agency's Health Conferences. Cost of seminarlregistration will vary
                 depending on the type of course". Necessary computer training for
                 staff were approved by the NAAA Agency Directors and NAAA
                 Director so staff could be able to efficiently perform their tasks.
6. Vehicle Mileage Expense:
                     a. New Employee Oreintation: All new staff hired under the
                         sponsor organization are required to attend the orientation to
                         effectively perform on the job and follow Navajo Nation
                         policies and procedures. Again based on the advice provided
                         from the AZ State CNS, if the training is beneficial to the staff,
                         the Agency Director would have determined a necessary
                         training for new staff.
                     b.
   7 . Site Rental Expenses: Staff were periodically instructed that site rentals were
       disallowable. We need to know which agency office processed and incurred
       expenses so the agency can be held accountable for these expenses.

    8. Seminar Registration Fees. (3) Navajo Nation representatives were unable to
       locate supporting documentation. We request the Travel Authorization numbers
       and especially the names of staff so we can account for and locate the document.
       All supporting documents, if questioned are attached to the documents and
       submitted to the Financial Services.

    9. Overclaimed Federal Share: The AZ State Director and I discussed the percent
       required for the 90110 ratio at least two occasions. He informed that the ration
       increased to 80120 as it is for some other tribal federal grants and contracts. I
       discussed through telephone calls and brought it up for confirmation on the
       second call. We have discussed the computation for the Direct Benefits Ratio as
       well and since I did not receive any feedback indicating that Navajo Nation was
       not meeting required ration, there was no need for revision or concern. Usually,
       the AZ State CNS Office will review the grant renewal and budget amendments.

    10. Personnel, Regular: Again, no such OMB Circular A-87 requirements were
        brought to our attention for the matching positions. As stated for the federally
        funded staff, if the state corporation office or the national level determines any
        significant regulations, all project directors are informed. No such notices were
        given on matching positions to the grant. We do have state assessments on
        finances for staff time sheets. These were the only documentations required. The
        requirement on matching position has been changed to 100% for the five VSCs,
        since the independent audit was conducted.
11. Salary Adjustments: The Navajo Nation approves a Cost of Living Adjustments
    across the board for all tribal employees, six months into the program year. The
    tribal funding cycle runs October 01 to September 30. The Navajo FGP federal
    funding cycle is from April 01 to March 31. Current employee salaries are
    submitted in the budget justification with the grant renewal application. Salary
    Adjustments are made until actual salary increases are made. A budget
    amendment would have to be submitted annually to justify adjustments.

12. Fringe Benefits are a necessary and required item by the Navajo Nation. Rates
    are adjusted when salary increases are made and approved by the tribal
    government.

13. Compliance and Internal Control Issues: Bullet number 4, submittal of late
    Progress Reports. I usually call to the Arizona State Office if I need a few extra
    days. The State Office Program Specialist may be out of the office and will
    inform that submitting the report a few days later while she is out of the office is
    no problem and an extension is granted. This is what happened at the end of
    April 2002. A written approval on the extensions were not obtained.

   I did have multiple projects due when the first bi-annual report was due. I did
   have the bi-annual report scheduled, however, the grant renewal application
   needed to be initiated to meet the deadline. Because of the lengthy tribal review
   and approval process for the grant renewal, as the Management Specialist I put
   the grant renewal application as a priority. I had to meet with the field staff on the
   budget, objectives and other requirements by late October, and finalized the
   application by late November and process through several departments which take
   any where one to two weeks to review and approve. At this time, I did request for
   extension and an extension was granted, but by early December I requested
   emergency leave and time off for one week to take care of a very important
   personal matter. This added to a late submittal and is not usually the case to be
   extremely late. Efforts will be made to submit reports on time.

   Bullet number five: Navajo Nation's budget procedures need improvement. I
   am in agreement. The re-organization within the NAAA needs to be fine tuned
   for accountability. While in the previous years, I had direct oversight and
   approved expenditures, beginning Fiscal Year 2001102, responsibility and
   approvals on the FGP budget was re-directed to five NAAA Agency Directors
   and NAAA Director. All financial documents were processed through the NAAA
   Accountants, only those in question were brought to my attention. The re-
   organization was reviewed, negotiated and approved through the Arizona State
   CNS Office late 2001. Therefore, any further request for response to the formal
   audit report should be directed to and include the sponsor. I will develop and
   refine specific program policies on the FGP budget expenditures, review with
   staff and re-write any budget justifications to cover any necessary and reasonable
   cost to operate the program on behalf of our volunteers and field staff and provide
audit report should be directed to and include the sponsor. I will develop and
refine specific program policies on the FGP budget expenditures, review with
staff and re-write any budget justifications to cover any necessary and reasonable
cost to operate the program on behalf of our volunteers and field staff and provide
staff training. However, full implementation and corrective measures rest with
my Supervisor, Ms. Laverne Wyaco, Program Manager, Navajo Area Agency on
Aging who has direct oversight and supervision over the accountants and five
Agency Supervisory Personnel.           Agency Supervisory Staff have direct
supervision over the FGP Volunteer Service Coordinators.

There may recommendations to re-organize again for accountability. Our
organization will need to re-group and make decisions based on a formal audit
report from your agency and the Arizona State CNS Office.
                            Personal Agenda for Irene Eldridge                           S ,E, N,'0 4 POWER
                                                                                       ,-,
                                                                                                         I

                                 Southwest Cluster 2001




lrene Eldridge
Navajo Area Agency on Aging
P.O. Box 1390
Window Rock, AZ 86515
Dear Irene:
The following is a summary of your personal itinerary for the NSSC "Tapping Senior Power: Community
 Partnerships That Work" Southwest Cluster Conference. The conference begins on May 9, 2001 and
concludes on May 11,2001.

Plenary events are as follows:
*Opening Plenary: May 9th, 1.30 pm - 3:00 pm, Grand Ballroom
*Plenary Lunch: May loth, 12:30 am - 2:00 pm, Grand Ballroom
*DinnerlRSVP Celebration: May loth, 7:30 pm - 10:OO pm, Grand Ballroom
*Closing Plenary: May I l t h , 10:30 am - 12:30 pm, Grand Ballroom


              Session                      Location                       Start Time   End Time   Att.
              Opening Plenary:             Grand Ballroom                  1.30 PM      3:00 PM    1
              Section 3                    Cotillion 1                     3:30 PM      5:00 PM    1
              A09 - Tech Dialogue-PD       Emporium                        8.30 AM     10:OO AM    1
              609 - PFI for FGP            Cotillion 3                    10:30 AM     12:OO PM    1
              SW1.05 Roundtable            ~otillion 1-3                   2:00 PM      3:30 PM    1
              Discussions
              SW2.05 Roundtable            Cotillion 1-3
              Discussions
               C02 - Roles Senior Svc      Emporium
               Leaders
               Closing Plenary             Grand Ballroom

Please arrive five minutes prior to the start of each of your sessions.

We hope you enjoy the conference!
February 19,2002
                                                                CORPORATION

                                                                FOR NATIONAL


TO:       Various NSSC Directors
FROM:     Michelle Griffith
SUBJ:     March 5-6,2002 AmeriCorps*VISTA Conference


YOU have been registered (as per the enclosed Registration
Information form) to attend the Tuesday and Wednesday, March 5
and 6,2002 session of the upcoming A*VISTA Supervisor Conference.
I have included an informational memo from our Area Manager, for
your convenient reference. This memo discusses the entire week's
worth of conferencing.

The part of this conference to which you are invited will begin
promptly a t 9:00 a.m. on the 5". And though the conference
continues through the end of the week, your participation is
scheduled to conclude with the banquet on March Cth.
Please call me if you have any questions. I look forward to seeing
you there.




                                                                    120 South Fcdcral Place

                                                  _-                SUIIC 3 IS
                                                                    Santa Fc >\l 87501 -2026




                                                                    Gelling T h s n ~ sDone.
                                                                    AmcnCorpr. h l m ~ aSl c r b u
                                                                    L c x n and S c r w Arncr~ca
                                                                    S m o n d Senlor Srr$lce Curpr
     CORPORATION

     FOR NATIONAL

     COMMUNITY




     MEMORANDUM

     February 12, 2002

     TO:             New and Potential AmeriCorps*VISTA Project Sponsors and Supervisors

     FROM:           Kathie Ferguson, Southwest Area Manager

     SUBJ:           Southwest Cluster New AmeriCorps*VISTA Supervisor Training for
                     Programs Providing Service in Indian Country

     You are invited to participate in the next AmeriCorps*VISTA Supervisor Training for new sponsors and
     supervisors of AmeriCorps*VISTA programs serving in Indian Country. The event is being held March
     4-8, 2002, at the Holiday Inn Mountain View in Albuquerque, New Mexico. You are asked to arrive on
     the evening of March 3, as sessions will begin at 9:OOa.m.on Monday, March 4.

     During this training, you will be introduced to the Corporation for National and Community Service
     (CNCS), and will have an opportunity to work with Corporation staff and technical assistance providers
     to:
         Explore the role AmeriCorps*VISTA can serve in meeting your community's goals;
         Developlexpand upon the concept paperlapplication you submitted to ensure the strongest program
         possible;
         Become familiar with the role of AmeriCorps*VISTA sponsors/supervisors in much the same way as
         the VISTA members do when they attend a Pre-Service Orientation (PSO);
         Receive training on your administrative & reporting requirements as a VISTA Supervisor;
.J       Learn From other tribal project directors who have experience working with CNCS and its programs.
     All new VISTA supervisors must complete this training before members will be placed at their
      project. New supervisors at existing projects are also required to attend.

     Training Schedule and Location
        Place:      Holiday Inn Mountain View
                    2020 Menaul NE
                    Albuquerque, New Mexico 87 107
                    TEL: (505) 884-25 11
        You will be pre-registered at the hotel.

           March 3'? Arrival.
                                   (8:OO-9:00 a.m.): Tribal supervisor training starts at 9:00 a.m. This first day
                      of orientation will focus specifically on AmeriCorps*VISTA projects operating in Indian
                      Country. This will allow time for you to network with your peers and discuss anticipated
                      program opportunities and challenges with Corporation for National & Community
                      Service staff, technical assistance providers, and each other.
                                    brings you together with staff of other proiects sponsored by CNCS
                                           Senior Service Corps, AmeriCorps (including the Tribal Civilian
                        ommunity Corps), and Learn & Serve ~ h e r i c a .Working with tribal
                      Corporation staff and technical assistance ,            1
                                                                                                             ~Iore
                     I\                      c                      e                     s                 -    .
     March 6": 8:30 a m . -- AmeriCorps*VISTA Supervisor training begins with tribal and non-tribal
               supervisors. You will join other new AmeriCorps*VISTA supervisors from projects
dv             throughout the Southwest for this three-day training.
     March 7:' Day 2 of Supervisors' Training
     March 8': Day 3 of Supervisors' Training

         Departurefrom the hotel for travel home should not occur before 2:30p.m on March 8,2002.

Transportation

     If you are planning to travel by air, please complete the travel form (attached) and fax it to Lisa
     Guccione at 602-379-4030. Lisa will arrange your flight for you on a prepaid ticket. DO NOT
     PURCHASE YOUR OWN TICKET.
     The hotel is 15-20 minutes away from the Albtiquerque International Airport. If y ~ are    u flying, the
     hotel will provide a free shuttle from the airport to the hotel. It is very important that you advise Lisa
     ifyourflight plans have changed or ifyou miss yourflight.

     If you are driving, please arrange your travel time to arrive at the hotel by the evening of March 3rd.

MealsILodgindIncidentals
  Lodging for arrivals on March 3 and departures on March 8 will be paid for. All meals besinning
  with breakfast on March 4 will be paid for.

     At check-in, you will be required to pay a $10.00 deposit for phone service/incidentals.

      Included with this letter is a travel registration page which includes information regarding any
      special room or dietary needs. PLEASE RETURN THIS PAGE VIA FAX TO LISA
      GUCCIONE AT THE ARIZONA CNCS STATE OFFICE by February 27,2002. Your
      cooperation and prompt response will be greatly appreciated. The fax number is 602-379-4030.

 We look forward to meeting you during this training. If you need to contact us in an emergency before
 your travel begins, please call Lisa at 602-232-4825.

 Thank you, and we look forward to seeing you there!!!!
NSSC A t t e n d e e   -   Tuesday and Wednesday Only




              This sheet must accompany each participant registration. Fax to Lisa Guccione at 602-379430.
                                                                                                                             v
            Participant's Full Name:          I r e n e El d r i dge

            Name you would like on your name tag:
                                                                   I r e n e E l d r i dge

            Current Address (Address to which materials can be sent):
                           FGP D i r e c t o r ; Navajo N a t i o n / D i v i s i o n o f H e a l t h
                           P. 0. Box 1390

                       ciW: Window         Rock                        State:    AZ          zip:       8 6 5 1 5

            Current phone (Number at which participant can best be rexhed):Pz0               )   871-6873

            Current c-mail (if a~silablc):


                                    - same -

                                                                                                                                  I
            K m c of P:oject:




             Prcfmed m c h o d of transporution to Albuquerque Event:

              8 Private Car               0 Plane

             If plane, identify the closest airport:



             Date you plan to arrive:                                   Date you plan to depart:        Wednesday

             At the hotel:         A r r a n g i n g own 1o d g i n g , i f needed.
             Do you plan to share a room? If yes, with whom?
             (wes k this to provide hotel with accurate room counts and ensure a h of you has a room when you arrive)

             Dietary Restrictions, if any:

             Special Requirements (physical limitations, translation, etc.):




            [ Corporation State Office Use Onlv:                                                                                      1
            [ ate entered into I-DESK:                                                For March 3-8 Albuquerque Conference


                                                                                                                    Travel Page
                   THE
                   NAVAJO               '




                   NATION
                   p. 0 . BOX 9000           W I N D O W ROCK, ARIZONA '86515                 ( 5 2 0 1 871-6000
                                                                                            TAYLOR McKENZIE. M.D.
KELSEY A. BEGAYE                                                                                VICE PRESIDENT
   PRESIDENT



      January 30,2001


      Richard Persely, Director
      National and Community Services Corporation
      Arizona State Program Office
      Room 205-A
      Phoenix, Arizona 85004

       Dear Mr. Persely:

       Enclosed is the final budget for the Navajo Foster Grandparent Program Application which
       includes the 2% administrative cost increase. The following budget changes were made:

               1. Computer software for 7 staff to upgrade office programs for year 2000.

               2. Funds for office supplies and tribal vehicle lease were increased. According to the
                  spending pattern of the program, agencies made more budget transfers for office
                  supplies and vehicle lease. For office supplies, since the tribal transit bus system no
                  longer delivers tribal mail on a weekly basis, most work sites now have to fax in time
                  sheets, therefore, faxing supplies have tremendously increased and extra cost for
                  Xerox cartridges as well.

               3. The temporary Accounting Clerk I11 position salary and fiinge increased also and a
                  salary adjustment for the Secretary.

               4. Printing cost was also increased.

       Should you have any, please call me at (520) 871-6783.




       Navajo Area Agency on Aging


        xc:    Grant Application File
         Non       Excess
FederalFederalNon-Fed.
10,827         0       320

                                   Meals and lodging rates are based on travel areas, Area C is within 50 miles of the
                                   reservation. The Volunteer Management Specialist and NAAA Director will have
                                   monthly program meetings and attend relevant training's provided by the sponsor.
                                   Often a reimbursement becomes necessary for meals and lodging when staff are
                                   required to stay overnight. Quarterly state meeting cost is included in the
                                   Window Rock budget.

                                   Federal Funds - Long Distance:

                                   Area A:               Meals       $34 x 13 trips x 2 staff =
                                                         Lodging     67 x 12 nights x 2 staff =


                                   Area C:                Meals      $28.75 x 30 trips x 5 agencies =
                                                          Lodging    $67.00 per night x 12 nights x 5 agencies =


                                   NMHB Funds:
                                   A.E.E&                 Meals      $30 per day x 4 days x 1 staff =
                                                          Lodging    $66.66 per night x 3 nights x 1 staff =




                                                         Staff P e r s o U e a a e !23041

                                   The Navajo Tribe's reimbursement rate for travel using privately owned vehicle is $.32.5
                                   per mile. Mileage is for conducting site visits and traveling to Window Rock for program
                                   and Advisory Council meetings transporting members. NAAA Agency Directors will
                                   occasionally use mileage when travelling on behalf of Foster Grandparent Program.
 8,444         0            0
                                   MILEAGE                                               (F)         (M)       (NM)        Total

                                CH410.76 mi. x $.32.5 mi. x 12 months                 1,602           0            0   $1,602.00
                                CP 410.76 mi. x $.32.5 mi. x 12 months                1,602           0            0   $1,602.00
                                FD 265.63 mi. x $.32.5 mi. x 12 months                1,036           0            0   $1,036.00
                                SR 410.76 mi. x $.32.5 mi. x 12 months                1,602           0            0   $1,602.00
                                TC 410.76 mi. x $.32.5 mi. x 12 months                1,602           0            0   $1,602.00
                                W 256.40 mi. x $.32.5 mi. x 12 months                 u!!x            Q            Q$1.000.00
                                                                           Total      8,444            0           0 $8.444.00


                                                          PAGE (2)
        Non     Excess
Federal Federal Non-Fed.                            Lease Tribal Vehicle (2100)
 9,162             1,639   Lease of tribal vehicle to travel to agency offices, workstation, etc. to keep abreast of program
                           regulations, conduct program monitoring activities, attend program staff meetings and
                           conduct site visits.

                           Federal Funds:
                           Lease @ $14.50 per day x 275.86 days =
                           Miles @ $.I7 per mile x 30,364.70 miles =



                           NMHB Funds:
                           Lease @ $14.50 per day x 89.65 days =
                           Miles @ $.I 7 per mile x 1994.11 miles =




                                               Lona Distance Travel 12200)
                           National and Community Service Corp. Conference to be attended by the FGP Director

                           Regional Conference: DirectorlArea A Rates

                           Area B : Meals : $40 x 8.9 days x 1 trip =
                           Dir.lStaff Lodging: $140.00 per night x 4 nights x 1 trip =



                                                   Vehicle Rental (Off Reservation! (2400)
                           Rental of vehicle while attending national conference off the reservation.                  230 F


                                                  Commercial Fares 12500)
                           Cost of passenger tickets issued by commercial carriers for airfare to national conferences
                           andlor state meetings.                      $612 x 2 trips                              1,224 F



                                                  Office Su~plies13100)
                           Office supplies are needed to operate the volunteer program and divided into six (6) offices
                           as indicated below.
                                                                                    (F)        (M)        (NM)        Total

                           Central office:                                        825            0           0         825
                           Chinle:                                                975            0           0         975
                           Crownpoint:                                            975            0           0         975
                           Fort Defiance:                                         975            0           0         975
                           Shiprock:                                              975            0           0         975
                           Tuba City:                                             975            Q           Q         975
                                                                      Total:    5,700            0           0       5,700



                                                   PAGE (3)
   2.000
         Non

             0
               Excess
Federd Federd Non-Fed.
                      0
                                                 -
                          To conduct a program evaulation of the Foster Grandparent Program volunteer satisfaction
                          and program capabilities.

                          Chinle, Crownpoint, Ft. Defiance, Shiprock and Tuba City Agency @ $400.00 ea        2,000 F

                                                  -ion                      (6610)
                          Staff registration fees are for writing seminar, management training and attendance to the
                          sponsoring agency's Health Conferences. Cost of seminarhegistration will vary depending
                          on the type of course.

                          $325 x 1 Director =
                          $325 x 1 Secretary =
                          $220 x lo+%=




                                                  Fre~ahtFees 16745)
                          To pay for freight cost to ship volunteer recognition items based on actual cost.

                          Chinle, Crownpoint, Ft. Defiance, Shiprock and Tuba City Agency @ $45.00 ea


                                                 v
                          7 microsoft windows 98 @ $484 each=
                          Purchase 7 microsoft windows 98 SR20EM and microsoft office pro 2000 to
                          upgrade software to 2000. Upgrade will be for 7 staff.

                                                 Indirect Cost !7999)
                          The Navajo Nation's overhead cost for outside funds.
                          Navajo Nation will re-applly for these funds at a later date.
                           @ 20.06 % x $143,968 = $24,055




                          New Mexico contract stipulates overhead cost at:
                          10% x $16,560 =




                                                  PAGE (5)
                                               APPENDIX B




CORPORATION'S RESPONSE TO DRAFT AUDIT REPORT
                                        Corporation for       P




To:            Russell George, Inspector General

Through:       Michelle Guillermin, Chief Financial

From:                                                     Service Cen
                           I
CC:            Tess Scannell, Director, National Senior Service Corps

Date:          February 20,2003

Subj:          Response to OIG Draft Audit Report #03-14, Audit of the Navajo Nation Foster
               Grandparents Program



The Southwest Service Center, and the Arizona Program Office have reviewed the draft audit
report of the Corporation's Grant Number 339W023-21 to the Navajo Nation Foster Grandparent
Program. Due to the limited timefiame for response, we have not analyzed all documentation
yet nor reviewed the audit work papers. We will respond to all findings and recommendations
when the audit is issued and we have reviewed the findings in detail. Following are our
comments on some of the compliance and internal control issues cited in the draft report.

Distribution of salary and benefit costs. The Corporation concurs with the audit that
appropriate procedures need to be in place in ensure that the distribution of actual salary and
benefit costs for full-time staff is certified at least semi-annually. During site visits, the Arizona
Program Office verified that the full-time staff do work exclusively for the FGP project.
However, they have apparently not officially certified this on a semi-annual basis.

In addition, the lack of sufficient allocation of salary and benefits to staff who work only part-
time on the FGP project has been a problem for a number of years. The report indicates that
"Navajo Nation representatives stated they were not aware of the requirement to allocate salary
costs based on after-the-fact determinations of each employee's activities". However, in addition
to policy citations in the OMB Circulars, the Navajo were informed by letter in July 1998: "I
reviewed all staff time sheets for OCT/NOV/DEC. All were accurate and appropriately signed.
However, the Volunteer Coordinators are only part-time with FGP and I saw no allocation of the
time spent on FGP and non-FGP activity. Costs for staff time should be paid on the basis of
actual time worked and not on the basis of time budgeted". In addition, audit report #98-l5 (by
Birnbaum for the OIG) includes the following finding: "Staff salary charges were not supported
by timesheets nor labor distributions". While the latter was an audit of an AmeriCorps program,




                               1201 New York Avenue, NW      *
                                                           Washington, DC 20525
                                     202-606-5000    *
                                                     www.nationalservice.org
                                                                                                Freedom Corps
                               Senior Corps   * AmeriCorps * Learn and Serve America            The Presdent's Call to Servlce
the Navajo Nation, as the grantee, was notified of this deficiency. During the audit resolution
process we will follow-up and ensure that appropriate time and attendance policies and
procedures are implemented. If appropriate procedures are not in place, the grantee risks losing
its program funding.

Unallowable and unallocable costs. We will make decisions on these costs during the audit
resolution process. However, most questioned costs seem to be for project-related purposes
(staff training and staff travel to meetings and volunteer recognition events) and most seem to
meet the "necessary, allowable and reasonable" cost standards.

Late submission of Financial Status Reports(PSRs) and Program Progress Reports(PPRs):
Late submission of FSRs and PPRs was addressed in a January 29, 2002, letter to Kelsey Begay,
President, The Navajo Nation from the Corporation The Navajo Nation was reminded of the
importance of submitting required reports on time and that access to grant funds may be
suspended if the financial reports were not submitted in 30 days. The Navajo Nation complied .

Budget procedures need improvement. We concur with the recommendation that the Navajo
Nation develop and implement budget monitoring policies and procedures and that field office
personnel receive additional training in these areas.

Thank you for the opportunity to review and comment.
